Capital Case

No. _______
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2020

DAVID WAYNE ALLEN, Petitioner
vs.

BETTY MITCHELL, Warden, Respondent
APPLICATION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Petitioner David Wayne Allen moves for leave to proceed in forma pauperis.
Mr. Allen is filing a Petition for a Writ of Certiorari to the U.S. Court of Appeals
for the Sixth Circuit. Undersigned counsel was appointed to represent Mr. Allen
by the Sixth Circuit under the Criminal Justice Act. Accordingly, Petitioner
respectfully requests that this Court grant his motion.

«u;&0C

! COTTA, (OH #0000778)
ou n el of Record
1360 East 9th Street, Suite 910
Cleveland, Ohio 44114
(216) 241-0715
(216) 241-9434 - fax
jjricotta@aol.com
Counsel for Petitioner
David Wayne Allen

